           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
     BY THE ARIZONA DISABILITY
      DETERMINATION SERVICES

     March 2010    A-09-09-19020




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                          SOCIAL SECURITY
M EM ORANDUM

Date:      March 8, 2010                                                                Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Administrative Costs Claimed by the Arizona Disability Determination Services
           (A-09-09-19020)

           OBJECTIVE
           Our objectives were to (1) evaluate the Arizona Disability Determination Services’
           (AZ-DDS) internal controls over the accounting and reporting of administrative costs;
           (2) determine whether costs claimed were allowable and funds were properly drawn;
           and (3) assess limited areas of the general security controls environment.

           BACKGROUND

           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for
           the development of disability claims under the DI and SSI programs. Disability
           determinations under both DI and SSI are performed by disability determination
           services (DDS) in each State or other responsible jurisdiction. Such determinations are
                                                                                                 1
           required to be performed in accordance with Federal law and underlying regulations.
           In carrying out its obligation, each DDS is responsible for determining claimants'
           disabilities and ensuring adequate evidence is available to support its determinations.
           To assist in making proper disability determinations, each DDS is authorized to
           purchase medical examinations, X-rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants' physicians or other treating sources.


           1
            The Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601 et seq. and
           416.1001 et seq.
Page 2 – Peter D. Spencer

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury's (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 3 An advance or
reimbursement for costs under the program must comply with Office of Management
and Budget Circular A-87, Cost Principles for State, Local, and Indian Tribal
Governments. At the end of each quarter of the fiscal year (FY), each DDS is required
to submit a State Agency Report of Obligations for SSA Disability Programs
                                                                               4
(SSA-4513) to account for program disbursements and unliquidated obligations. The
SSA-4513 reports expenditures and unliquidated obligations for Personnel Service
Costs, Medical Costs, Indirect Costs, and All Other Non-Personnel Costs. 5

AZ-DDS is a component of Arizona Department of Economic Security (AZ-DES),
Division of Benefits and Medical Eligibility. For FYs 2006 and 2007, AZ-DDS had about
227 employees and an authorized budget of $52.1 million for administrative costs. As
of September 30, 2007, AZ-DDS had reported total disbursements of $50 million and
unliquidated obligations of $2.1 million (see Appendix B).

RESULTS OF REVIEW

We found the costs claimed by AZ-DDS were generally allowable and funds were
properly drawn. However, we determined that AZ-DDS and/or AZ-DES

• improperly paid an estimated $563,812 for missed consultative examinations (CE);
• could have saved an estimated $334,410 in CE costs incurred at remote locations or
  locally on weekends;
• improperly paid $134,506 for CE fees in excess of the maximum allowable rates;
• improperly charged $29,805 in costs that did not benefit SSA;
• overstated unliquidated obligations by approximately $1.8 million;
• did not allocate approximately $6,000 of State-wide indirect costs to SSA’s
  programs; and
• needed to improve controls to adequately protect sensitive information.

2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503.
4
 SSA, POMS, DI 39506.201 and 202. POMS, DI 39506.200 B.4 provides, in part, that “Unliquidated
obligations represent obligations for which payment has not yet been made. Unpaid obligations are
considered unliquidated whether or not the goods or services have been received.”
5
    SSA, POMS, DI 39506.201 and 202.
Page 3 – Peter D. Spencer

PAYMENTS FOR MISSED CEs

AZ-DDS incorrectly paid fees for missed CE appointments. This occurred when
AZ-DDS contracted with CE providers to perform CEs at remote locations or locally on
weekends. AZ-DDS staff stated that claimants generally received one reminder letter,
and appointments were not canceled if the claimant did not respond to the reminder.
AZ-DDS staff also stated that appointment cancellation information was not always
communicated between staff and entered in the computer system timely, which caused
missed appointments. Consequently, AZ-DDS paid CE providers for services they did
                                                                  6
not perform. Based on our review of a sample of 100 CE projects, we found that in
88 of the projects, AZ-DDS paid $26,470 for missed CE appointments. Based on our
sample results, we estimate that SSA reimbursed AZ-DDS $563,812 for missed
CE appointments (see Appendix C).

SSA has a no-pay policy for missed CE appointments. However, on a case-by-case
basis, the DDS may request an exemption to the no-pay policy. To obtain an
exemption, the DDS should work with the SSA Regional Office (RO) to document the
situation and forward the request with supporting documentation to the Office of
Disability Determinations (ODD) for approval. 7 Our review found that AZ-DDS and the
SSA RO did not obtain an exemption, as required.

SCHEDULING OF CEs

AZ-DDS has contracts with medical providers to perform CEs at remote locations and
locally on weekends. These contracts specify the number and types of examinations
that should be scheduled and performed. In addition, the medical providers are paid a
fixed amount for each CE project regardless of the number of examinations scheduled.
Therefore, to the extent possible, AZ-DDS should schedule the maximum number of
examinations specified by the contracts.

Based on our review of a sample of 100 CE projects, we determined that AZ-DDS
scheduled the maximum number of examinations for 59 of the projects. However, for
41 of the projects, AZ-DDS did not schedule the maximum number of appointments.
For these 41 projects, AZ-DDS could have scheduled up to 255 CEs; however, it only
scheduled 163 (64 percent). Had the additional 92 CEs been scheduled, AZ-DDS
would have saved approximately $15,700 in CE costs. Based on our sample results,
we estimate that AZ-DDS could have saved $334,410 in CEs (see Appendix C).

According to SSA policy, State agencies are expected to exercise reasonable care in
expending funds required for making SSA disability determinations. These funds must
be effectively and economically used in carrying out the provisions of the disability


6
  A CE project is a group of examinations CE providers were contracted to perform at remote locations or
locally on weekends. CE projects were about 50 percent of all CEs payments.
7
    SSA, POMS, DI 39545.275.
Page 4 – Peter D. Spencer

program. 8 Our review disclosed that AZ-DDS did not always ensure it scheduled the
maximum number of appointments allowed by the contracts. AZ-DDS staff agreed that
CE project schedules were not always reviewed to ensure all appointments were filled.

CE PAYMENTS IN EXCESS OF THE MAXIMUM ALLOWABLE RATE

AZ-DDS improperly paid medical providers $134,506 for CEs in excess of the maximum
rates paid by Federal or other agencies in the State. We compared AZ-DDS’ CE
payments to the Medicare, Industrial Commission of Arizona, and Arizona Health Care
Cost Containment System fee schedules and determined the maximum rate allowed
under Federal regulations. As depicted in the table below, AZ-DDS’ payments to
medical providers exceeded the allowable maximum rate for 6,426 CEs. Payments for
these CEs totaled $541,615; however, the allowable payments were limited to
$407,109.

                         Medical              Actual           Maximum      Improper
         FY
                         Services            Payments          Payments     Payments
        2006              5,067              $402,874          $308,421      $94,453
        2007               1,359              $138,741          $98,688      $40,053
        Total              6,426              $541,615         $407,109     $134,506

Federal regulations require that each State determine the payment rates for Medical
services necessary to make disability determinations. The rates may not exceed the
highest rate paid by Federal or other agencies in the State for the same or similar type
of service. 9 The State is responsible for monitoring and overseeing the rates of
payment for Medical services to ensure the rates do not exceed the highest rate paid by
                                      10
the Federal or other State agencies.

AZ-DDS staff stated that examinations conducted in hospitals had previously been
subject to hospital fees in addition to standard rates, but it continued to pay hospital
fees after they were no longer applicable. AZ-DDS indicated that it discontinued paying
hospital fees in August 2009. In addition, AZ-DDS staff stated that some medical
providers in rural areas were unwilling to accept the highest rate allowed. However, if
AZ-DDS has difficulty obtaining specific examinations or tests, it is required to submit a
written waiver request to the SSA RO. As such, AZ-DDS should work with SSA to
determine whether it was necessary to exceed the highest allowable fees. 11 If SSA




8
    SSA, POMS, DI 39506.001B.1.
9
    20 C.F.R. §§ 404.1624 and 416.1024.
10
     20 C.F.R. §§ 404.1519k(c) and 416.919k(c).
11
     SSA, POMS, DI 39545.625B.4, DI 39545.625B.1 and DI 39545.625B.2.
Page 5 – Peter D. Spencer

determines it was not necessary, SSA should consider appropriate action, such as
instructing AZ-DDS to refund the excess CE payments and limit future CE payment
rates.

REIMBURSEMENT FOR NON-SSA WORK

We found that AZ-DDS incorrectly charged medical expenditures, totaling $29,805, for
Arizona Long Term Care System (ALTCS) applicants to SSA’s programs. AZ-DDS
performs disability determinations for ALTCS applicants. While reviewing AZ-DDS
medical costs, we found that AZ-DDS improperly charged CE and medical records
expenses for ALTCS applicants to SSA. This occurred because AZ-DDS did not
always verify whether medical costs were for ALTCS applicants before processing
payment for medical invoices. As a result, SSA reimbursed AZ-DDS for unallowable
medical costs applicable to non-SSA work. AZ-DDS agreed to improve controls to
ensure medical costs for non-SSA work are charged to the correct fund.

According to SSA policy, if the DDS receives a request to make disability
determinations for claims not related to SSA’s programs, the requesting agency bears
                                                                                     12
the responsibility for the funding and staffing related to the non-SSA program work.

UNLIQUIDATED OBLIGATIONS

We found that AZ-DDS overestimated unliquidated obligations and did not review
unliquidated obligations timely to properly deobligate funds that were no longer needed.
As a result, AZ-DDS overstated unliquidated obligations by about $1.8 million for
FY 2006. Since AZ-DDS did not remove the unliquidated obligations until after the end
of the FY, SSA was unable to redirect these funds for other purposes. At the end of
FY 2006, AZ-DDS’ estimated total unliquidated obligations were about $3.5 million.
However, the valid unliquidated obligations should have only been about $1.7 million.
As shown in the table below, the over-obligated funds consisted of Personnel, Medical,
Indirect, and All Other Non-Personnel costs.

                                          FY 2006
                             Overstated Unliquidated Obligations
               Personnel Costs                                      $886,885
               Medical Costs                                        $467,871
               Indirect Costs                                        $33,551
               All Other Non-Personnel Costs                        $460,024
               Total                                               $1,848,331




12
     SSA, POMS, DI 39518.040A.
Page 6 – Peter D. Spencer

According to AZ-DDS staff, it overestimated the unliquidated obligations and did not
review them monthly to determine whether they were valid. As a result, obligated funds
that were no longer needed were not canceled, and necessary corrections were not
reported to SSA timely. We reviewed the unliquidated obligation balance as of
June 2009 and found that AZ-DDS took corrective actions to reduce them to zero.

According to SSA policy, valid unliquidated obligations should be supported by
documents and records describing the nature of the obligations and supporting the
amounts recorded. SSA policy further indicates that State agencies should review
unliquidated obligations at least once each month and cancel those that are no longer
valid. 13

IMPROPER ALLOCATION OF STATE-WIDE INDIRECT COSTS

We found that SSA reimbursed AZ-DES $10,205 of unallowable indirect costs from
July 2006 through June 2007. According to AZ-DES personnel, this occurred because
adjustments to the estimated State-wide costs were not made after the actual costs
were approved. As a result, AZ-DES improperly charged State-wide Indirect Costs to
SSA's programs. We also found that AZ-DES undercharged SSA indirect costs of
$16,365 from July 2007 through June 2008. This occurred because AZ-DES incorrectly
applied the prior year rate to allocate current year State-wide Indirect Costs.

                                State-wide   Approved
                                 Indirect    State-wide                    Improper
                                  Costs       Indirect                   Allocation of
            Period              Allocated      Costs      Difference    Indirect Costs

 July 2006 – June 2007           $86,016      $54,189      $31,828         $10,205

 July 2007 – June 2008           $54,189     $103,472     ($49,284)       ($16,365)

Total                           $140,205     $157,661     ($17,456)        ($6,160)

State-wide Indirect Costs are expenditures for services that benefit all departments in
the State, including accounting, budgeting, and payroll from the Arizona General
Accounting Office and State Treasurers. A State-wide Indirect Cost pool is used to
allocate an equitable share of State-wide costs to all programs that benefit from these
services. At the beginning of each State FY, AZ-DES uses an interim rate or prior year
rate until a final rate for State-wide Indirect Costs is approved. SSA has no authority to
reimburse States for the costs of central services unless such costs are included in an
approved State-wide Cost Allocation Plan. 14



13
     SSA, POMS DI 39506.203A.
14
     SSA, POMS, DI 39506.300.B.2.d.
Page 7 – Peter D. Spencer

Our review found that AZ-DES needed to improve its controls to prevent any future
incorrect allocations. AZ-DES agreed to correct these errors and make adjustments in
a timely manner as soon as the approved rates become available.

RISK OF UNAUTHORIZED ACCESS TO SENSITIVE INFORMATION

Our review disclosed that AZ-DDS lacked physical security controls over personally
identifiable information (PII) and the distribution of the office access key code at the
AZ-DDS office in Phoenix. We found that AZ-DDS did not keep sensitive records
secured when cleaning services were provided during non-work hours or when
claimants and medical providers were in the DDS office for CEs conducted on
weekends. AZ-DDS did not practice a clean-desk policy, and shredding bins and office
cabinets containing sensitive information were unlocked when there was no authorized
individual present. AZ-DDS also did not limit the distribution of the office access key
code to only those individuals who needed them. These weaknesses increased the risk
of unauthorized access and loss of sensitive information.

According to SSA policy, if office cleaning is not performed during work hours, the DDS
must take extra care to ensure documents containing PII are secured overnight, 15 and
the DDS should implement a clean-desk policy. 16 Sensitive records awaiting
destruction should be secured in locked bins or secured by other means to make the
data unattainable to unauthorized personnel. 17 Finally, possession of office keys
should be limited to those individuals who must have them. 18

AZ-DDS agreed to take corrective actions to ensure sensitive documents are secured
overnight and to limit the distribution of the office access key code to only those
individuals who need them.

CONCLUSION AND RECOMMENDATIONS
We found the costs claimed by AZ-DDS were generally allowable and funds were
properly drawn. However, AZ-DDS needed to improve controls over the (1) payment
for missed CE appointments, (2) scheduling of CE appointments at remote locations or
locally on weekends, (3) payment of CE fees in excess of the maximum allowable rates,
(4) payment for non-SSA work, (5) overestimates and timely review of unliquidated
obligations, and (6) allocation of State-wide indirect costs. Finally, AZ-DDS needed to
improve controls to adequately protect sensitive information.



15
     SSA, POMS, DI 39567.040C.
16
     SSA, POMS, DI 39567.020A or DI 39567.220A.
17
     SSA, POMS, DI 39567.020C.
18
     SSA, POMS, DI 39567.040A.1.
Page 8 – Peter D. Spencer

We recommend that SSA:

1. Instruct AZ-DDS to refund $563,812 in unallowable costs paid to medical providers
   for missed CE appointments or request an exemption to the no-pay policy.

2. Ensure AZ-DDS schedules the maximum number of CEs, to the extent possible, in
   accordance with the contract; or modify its contract to pay medical providers based
   on the actual number of CEs scheduled.

3. Determine whether it was necessary for AZ-DDS to exceed the highest allowable
   rates to obtain CE services. If SSA determines it was not necessary, SSA should
   consider appropriate action, such as instructing AZ-DDS to refund $134,506 in
   excess CE payments and limit future CE payment rates.

4. Instruct AZ-DDS to refund $29,805 in unallowable costs for non-SSA work
   performed by AZ-DDS.

5. Ensure AZ-DDS improves controls over its estimates of unliquidated obligations.

6. Ensure AZ-DDS monitors and properly adjusts unliquidated obligations timely.

7. Ensure AZ-DES improves controls over the allocation of State-wide Indirect Costs.

8. Ensure AZ-DDS implements a clean-desk policy, keeps all sensitive documents
   secure, and limits the distribution of access key codes to only those individuals who
   need them.

AGENCY COMMENTS

SSA agreed with all our recommendations. AZ-DES agreed with Recommendations 3
through 8 and disagreed with Recommendations 1 and 2. However, AZ-DES stated it
is willing to work with SSA to resolve Recommendation 1. In response to
Recommendation 2, AZ-DES stated that it was exercising reasonable care when
expending funds for CE appointments.

See Appendices D and E for the full text of SSA’s and AZ-DES’ comments.
Page 9 – Peter D. Spencer

OTHER MATTERS

MEDICAL CONSULTANTS’ CONVERSION FROM CONTRACTORS TO
EMPLOYEES

AZ-DDS medical consultants (MC) review, evaluate, and interpret claimant medical
records and work with the disability examiners to make disability determinations. In
December 2000, nine AZ-DDS MCs who were contractors petitioned the Internal
Revenue Service (IRS) to determine their employment status for Federal employment
tax purposes. Based on the information that was presented to the IRS for the nine
MCs, the IRS determined that MCs should be AZ-DDS employees because AZ-DDS
retained the right to direct and control their services performed. Subsequently, AZ-DDS
questioned whether its MCs needed to comply with Arizona liability insurance
requirements. According to AZ-DES staff, Arizona requires that all contractors who are
licensed or certified have professional liability insurance to protect the State against
losses that may occur if lawsuits are filed against the contractors. As a result of these
two issues, in May 2005, all AZ-DDS contracted MCs were converted to employees.

AZ-DDS’ decision to convert MCs from contractors to employees increased MC costs
by approximately $2.7 million. As shown in the following chart, MC salaries and related
expenses in FYs 2006 and 2007 were approximately $7.4 million compared to
$4.7 million we estimate would have been paid to MC contractors.

              Number of      Amount Paid to       Amount Paid if
                Cases           MCs as              MCs Were                         Percent
      FY      Completed       Employees            Contractors       Difference     Increase

     2006       58,835          $3,114,844          $1,941,555       $1,173,289           60

     2007       83,779          $4,341,136          $2,764,707       $1,576,429           57

     Total      142,614         $7,455,980          $4,706,262       $2,749,718           58

We also found that SSA did not require that States obtain professional liability
insurance for MCs who were contractors. According to SSA policy, the Federal
government is responsible for defending court challenges to disability determinations
and related procedures for making determinations. The State agency is not responsible
for defending in court any disability determination made. 19

Given the significant increase in MC costs, SSA should evaluate AZ-DDS’ employment
relationship with its MCs to ensure their services are provided in the most cost-effective
manner. In response to our draft report, SSA stated that it has limited capacity to set
State employment procedures. However, AZ-DES stated it is willing to work with SSA
to determine if MCs can provide services in a more cost effective manner.

19
     20 CFR §§ 404.1615(g) and §§ 416.1015(h); see also SSA, POMS, DI 39518.050A and B.
Page 10 – Peter D. Spencer


PERFORMANCE PAYMENTS

All AZ-DDS employees received two types of performance payments in FYs 2006 and
2007. One was paid based on AZ-DES’ performance, while the other was based on
AZ-DDS’ performance. Neither of the performance payments was based on individual
employee performance. The total performance payments made to AZ-DDS employees
was $753,843.

Arizona law provides for performance payments of 2.5 to 2.75 percent of salaries to
                           20
nearly all State employees. The performance payments are distributed to each AZ-
DES employee if AZ-DES meets or exceeds prescribed performance measures. In
FYs 2006 and 2007, all AZ-DDS employees received the State-wide performance
payment totaling $382,780. Arizona also has a performance-based incentive program
in which State agencies may participate. 21 AZ-DDS implemented the Performance
Incentive Pilot Program (PIPP) for all AZ-DDS employees to reward teams of
employees based on increased team performance. All AZ-DDS employees received
the same incentive payment amount. All AZ-DDS employees received the PIPP
performance payment totaling $371,063 for FYs 2006 and 2007.

According to Office of Management and Budget Circular A-87, Federal awards must be
consistent with policies, regulations, and procedures that apply uniformly to Federal
                                                     22
awards and other activities of the governmental unit. In addition, according to SSA’s
Monetary Awards policy, monetary awards are granted to SSA employees to recognize
accomplishments of employees as individuals and as members of groups or teams.




20
     2006 Ariz. ALS, 1 §§ 5 and 6 and 2007 Ariz. ALS, 255 § 109.
21
     Arizona Revised Statutes § 38-618 (A).
22
     Office of Management and Budget Circular A-87, Attachment A, Section C.1.e.
Page 11 – Peter D. Spencer

Cash awards are based on appraisals of individual performance and individual
contributions to the group or team’s achievement. Finally, only employees in good
standing are eligible for monetary awards. 23 As such, SSA should consider developing
policy for the reimbursement of performance payments to DDS employees.




                                                       Patrick P. O’Carroll, Jr.




23
     Office of Labor Management and Employee Relations 2005 SSA/AFGE National Agreement Article 17.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology, Results, and Estimates
APPENDIX D – Social Security Administration Comments
APPENDIX E – Arizona Department of Economic Security Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act             Social Security Act
ALTCS           Arizona Long Term Care System
Ariz. ALS       Arizona Advance Legislative Service
AZ-DDS          Arizona Disability Determination Services
AZ-DES          Arizona Department of Economic Security
CE              Consultative Examination
C.F.R           Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
IRS             Internal Revenue Service
MC              Medical Consultant
ODD             Office of Disability Determinations
PII             Personally Identifiable Information
PIPP            Performance Incentive Pilot Program
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
RO              Regional Office
SSA             Social Security Administration
SSI             Supplemental Security Income
Treasury        Department of the Treasury
U.S.C.          United States Code
                                                                        Appendix B

Scope and Methodology
We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the Arizona Disability Determination Services (AZ-DDS) on the State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) for Federal Fiscal
Years (FY) 2006 and 2007. As of September 30, 2007, AZ-DDS reported the following
disbursements and unliquidated obligations on its Forms SSA-4513.

Category                                               FY 2006            FY 2007
Disbursements
  Personnel Costs                                    $13,589,648        $15,029,741
  Medical Costs                                        6,950,581          7,327,190
  Indirect Costs                                       1,236,325          1,257,208
  All Other Non Personnel Costs                        2,246,681          2,400,011
  Total Disbursements                                $24,023,235        $26,014,150
Unliquidated Obligations                                 340,478          1,746,398
Total Obligations                                    $24,363,713        $27,760,548

To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent sections of SSA’s
    Program Operations Manual System, and other criteria relevant to security controls,
    administrative costs claimed by AZ-DDS, and drawdowns of SSA program funds.

•   Reviewed State laws, regulations, and policies pertinent to performance pay.

•   Interviewed employees from the SSA regional office, AZ-DDS, and Arizona
    Department of Economic Security (AZ-DES).

•   Reviewed the Single Audit Reports for the State of Arizona related to the 2-year
    period October 1, 2005 through September 30, 2007.

•   Obtained an understanding of the internal control structure to plan the audit and
    determine the nature, timing, and extent of the tests to be performed.

•   Obtained data from AZ-DES to support amounts reported on the SSA-4513 and
    tested the reliability of the data by comparing disbursements, by line item totals, with
    the amounts reported on the SSA-4513.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures reported on the SSA-4513.



                                            B-1
•   Examined the administrative expenditures claimed by AZ-DDS for Personnel,
    Medical, Indirect, and All Other Non-Personnel Costs in FYs 2006 and 2007.

•   Verified indirect costs for FYs 2006 and 2007 based on the approved indirect cost
    allocation plan.

•   Conducted a limited examination of AZ-DDS’ general security controls environment.

We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling
them with the costs claimed on the Form SSA-4513. We also conducted detailed audit
testing on selected data elements from the electronic files.

We performed audit work at AZ-DDS and AZ-DES in Phoenix, Arizona, and the San
Francisco Regional Office in Richmond, California. We conducted fieldwork between
September 2008 and September 2009. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on
Form SSA-4513: (1) Personnel, (2) Medical, and (3) All Other Non-Personnel Costs.
We obtained computerized data from AZ-DES and AZ-DDS for FYs 2006 and 2007 for
statistical sampling.

Personnel Costs

We randomly selected 1 pay period in FY 2007 and reviewed a random sample of
50 personnel and all 50 medical consultants. We tested payroll records to ensure
AZ-DDS accurately paid its employees and adequately supported these payments.

Medical Costs

We reviewed 100 medical cost items. Using a stratified random sample, we selected
50 batched medical payment records from each FY. Within each batch, we selected
the first item listed on the batch. We distributed the sample items between medical
evidence of record and consultative examinations based on the proportional distribution
of the total medical costs for each year.




                                           B-2
All Other Non-Personnel Costs

We selected 100 All Other Non-Personnel Cost items. Using a stratified random
sample, we selected 50 batched payment records for each FY. Within each batch, we
selected the first invoice payment to review. Before selecting the sample items, we
sorted the transactions into the following categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases,
(4) Communication, (5) Applicant Travel, (6) AZ-DDS Travel, (7) Supplies, and
(8) Miscellaneous. We then distributed the sample items between categories based on
the proportional distribution of the total Non-Personnel costs for each year.




                                        B-3
                                                                                   Appendix C

Sampling Methodology, Results, and Estimates
CONSULTATIVE EXAMINATIONS

We obtained a data file from Arizona Disability Determination Services (AZ-DDS)
containing consultative examinations (CE) for contracted CE providers who travel to
remote locations or worked locally on weekends to perform a group of examinations
(CE projects). These CE projects accounted for $5,919,610, or 50 percent, of the
$11,836,908 paid to CE providers for CEs conducted from October 1, 2005 through
September 30, 2007. From this file, we identified a population of 2,130 CE projects
likely to have contained errors. The payments made to CE providers for the
2,130 projects were approximately $2.7 million.

We randomly selected 100 CE projects for review. For each sampled item, we
reviewed supporting documentation to ensure the amount paid to the CE providers
agreed with the contract terms and determined the number of missed and unscheduled
appointments. Finally, using the supporting documentation, we calculated the cost of
the missed and unscheduled appointments. 1 The following tables provide details of our
sample results and statistical projections.

    Table 1: Population and Sample Size                                              Number
    Population Size                                                                    2,130
    Sample Size                                                                          100

    Table 2: Missed Appointments                                  Number             Amount
    Sample Results                                                      88            $26,470
    Point Estimate                                                   1,874           $563,812
    Projection - Lower Limit                                         1,735           $502,877
    Projection - Upper Limit                                         1,977           $624,747
Note: All projections are at the 90-percent confidence level.


    Table 3: Unscheduled Appointments                             Number             Amount
    Sample Results                                                      41            $15,700
    Point Estimate                                                     873           $334,410
    Projection - Lower Limit                                           701           $258,364
    Projection - Upper Limit                                         1,054           $410,456
Note: All projections are at the 90-percent confidence level.



1
    A CE project could have at least one missed and one unscheduled appointment.
                                   Appendix D

Social Security Administration Comments
                                SOCIAL SECURITY
MEMORANDUM

Date:                                                             Refer To:   S2D9G4


To:        Inspector General

From:      Regional Commissioner
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the Arizona Disability Determination
           Services (A-09-09-19020)--REPLY

           Thank you for the opportunity to review the draft report of your audit of the
           Arizona Disability Determination Services. Per your request, we are providing an
           attachment with specific written comments for each of the eight
           recommendations contained in the draft report.

           We appreciate the work performed by the OIG staff in this region. They display
           consistent dedication to improving the fiscal efficiency of our DDSs.

           If you have any questions regarding our comments, please call me. If your staff
           have any questions, they may call Gus Villalobos in the Center for Disability at
           (510) 970-8297.




                                                    Peter D. Spencer

           Attachment




                                              D-1
                                                                              Attachment


        Regional Office Comments on the Arizona DDS Draft Audit Report


Recommendation 1: Instruct AZ-DDS to refund $563,812 in unallowable costs paid to
medical providers for missed CE appointments or request an exemption to the no-pay
policy.

Comment: We will seek an exemption to the no-pay policy and ensure the DDS is
doing what they reasonably can to avoid missed CE appointments. We generally
support the remote CE vendor process used by the AZ DDS because it saves the cost
of applicant travel and it provides excellent customer service to AZ’s most vulnerable
residents.

Recommendation 2: Ensure AZ-DDS schedules the maximum number of CEs, to the
extent possible, in accordance with the contract; or modify its contract to pay medical
providers based on the actual number of CEs scheduled.

Comment: We agree with the recommendation that the AZ DDS maximize CE
scheduling with providers traveling to remote locations, ensuring all CE projects’
appointments are thoroughly reviewed. We would like to see the State response before
deciding on a reasonable resolution, but we also want to avoid creating a policy that
results in the DDS delaying claims until the maximum number of CEs is scheduled.

Recommendation 3: Determine whether it was necessary for AZ-DDS to exceed the
highest allowable rates to obtain CE services. If SSA determines it was not necessary,
SSA should consider appropriate action, such as instructing AZ-DDS to refund
$134,506 in excess CE payments and limit future CE payment rates.

Comment: We agree with the auditor finding that the AZ DDS should not exceed
maximum allowable rates for CE services. We would like to see the State response
before deciding on a reasonable resolution to the finding.

Recommendation 4: Instruct AZ-DDS to refund $29,805 in unallowable costs for non-
SSA work performed by AZ-DDS.

Comment: We agree with this recommendation:

Recommendation 5: Ensure AZ-DDS improves controls over its estimates of
unliquidated obligations.

Comment: We agree with this recommendation.




                                           D-2
Recommendation 6: Ensure AZ-DDS monitors and properly adjusts unliquidated
obligations timely.

Comment: We agree with this recommendation.

Recommendation 7: Ensure AZ-DES improves controls over the allocation of State-
wide Indirect Costs.

Comment: We agree with this recommendation.

Recommendation 8: Ensure AZ-DDS implements a clean-desk policy, keeps all
sensitive documents secure, and limits the distribution of access key codes to only
those individuals who need them.

Comment: We agree with this recommendation.


Other Matters

Medical Consultants’ Conversion from Contractors to Employees

Comment: We understand the intent of this finding requesting SSA evaluate the AZ
DDS employment relationship with its MCs is based on ensuring their services are
provided in a cost-effective manner. However, the decision to convert the MCs to State
employees resulted from a State-directed decision based on Arizona procurement
regulations. As a matter of the Federal/State relationship, it is the State’s responsibility
to ensure qualified personnel and oversee their compensation (see POMS DI
39518.005). Because SSA has limited capacity to set State employment procedures,
we request this issue be omitted from the final report.

Performance Payments

Comment: The Arizona Department of Economic Security (DES) applies Department-
wide performance pay to employees based on Agency performance standards. While
the PESOS program in the AZ DDS is tailored to specific DDS performance measures,
it is not paid in addition to the DES performance pay program as suggested in the draft
report. The monies paid to DDS employees are consistent with DES performance pay
policies. SSA will review the DDSA PESOS program performance standards to ensure
they are aligned with SSA DDS performance requirements.




                                            D-3
                                   Appendix E

Arizona Department of Economic Security
Comments
E-1
E-2
E-3
E-4
E-5
E-6
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Vickie Choy, Auditor-in-Charge

   Manfei Lau, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-19020.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
